WAIVER

SUPREME COURT OF THE UNITED STATES

——

faa istrator, New Jersey State Prison

  
 

 

 

 

 

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© I am filing this waiver on behalf of all respondents.

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

dministrator, New Jersey State Prison and Gurbir S. Grewal, Attorney General of New Jersey

 

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States, (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System, The system will prompt you to enter
your appearance first.)

oO I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C, 20543).
a see

ee

 
 
     
 
  

Signature: A
Date: Biol 21 |

(Type or print) Name iCatherine A. Foddai

Firm Bergen County Prosecutor's

 

 

 

 

 

Phone |(201) 646-2300

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form, No additional certificate of service or cover letter is required.

 

 

racey SAimon-Smith
ce;

 

 

 
